No. 20-303

Ia the Supreme Cow of the United States

United States of America,
Petitioner,

Vv.
José Luis Vaello-Madero,

Respondent.

ON WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE
FIRST CIRCUIT
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of the Puerto Rico House
of Representatives as Amicus Curiae in Support of the Respondent contains 7,662 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 7, 2021.

   

Cobian’s Plaza-Suite 4Q4
1607 Ponce De Leén Ave:
San Juan, Juan, Puerto Rico 00909

(787) 999-2972
jorge@mlrelaw.com

Counsel for the Puerto Rico House of Representatives

    
